<html>
<title> - RISING TIDES, RISING TEMPERATURES: GLOBAL WARMING'S IMPACTS ON THE OCEANS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Publishing Office]






  RISING TIDES, RISING TEMPERATURES: GLOBAL WARMING'S IMPACTS ON THE 
                                 OCEANS

=======================================================================

                                HEARING

                               before the
                          SELECT COMMITTEE ON
                          ENERGY INDEPENDENCE
                           AND GLOBAL WARMING
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 29, 2008

                               __________

                           Serial No. 110-35


             Printed for the use of the Select Committee on
                 Energy Independence and Global Warming

                        globalwarming.house.gov






                  U.S. GOVERNMENT PRINTING OFFICE
61-725                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                SELECT COMMITTEE ON ENERGY INDEPENDENCE
                           AND GLOBAL WARMING

               EDWARD J. MARKEY, Massachusetts, Chairman
EARL BLUMENAUER, Oregon              F. JAMES SENSENBRENNER, Jr, 
JAY INSLEE, Washington                   Wisconsin
JOHN B. LARSON, Connecticut            Ranking Member
HILDA L. SOLIS, California           JOHN B. SHADEGG, Arizona
STEPHANIE HERSETH SANDLIN,           GREG WALDEN, Oregon
  South Dakota                       CANDICE S. MILLER, Michigan
EMANUEL CLEAVER, Missouri            JOHN SULLIVAN, Oklahoma
JOHN J. HALL, New York               MARSHA BLACKBURN, Tennessee
JERRY McNERNEY, California
                                 ------                                

                           Professional Staff

                   Gerard J. Waldron, Staff Director
                       Aliya Brodsky, Chief Clerk
                 Thomas Weimer, Minority Staff Director








                            C O N T E N T S

                               __________
                                                                   Page
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachusetts, opening statement...............     1
    Prepared statement...........................................     3
Hon. F. James Sensenbrenner, Jr. a Representative in Congress 
  from the State of Wisconsin, opening statement.................     6
Hon. Emanuel Cleaver II, A Representative in Congress from the 
  State of Missouri, prepared statement..........................     7
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, prepared statement.........................     9

                               Witnesses

Dr. Sylvia Earle, Explorer-in-Residence, National Geographic 
  Society........................................................    11
    Prepared Statement...........................................    14
Dr. Jane Lubchenco, Department of Zoology, Oregon State 
  University.....................................................    18
    Prepared Statement...........................................    26
Dr. Joan Kleypas, National Center for Atmospheric Research, 
  Boulder, Colorado..............................................    32
    Prepared Statement...........................................    34
    Supplement to Testimony......................................    53
    Answers to submitted questions...............................    92
Ms. Vikki Spruill, President and Chief Executive Office, Ocean 
  Conservancy....................................................    54
    Prepared Statement...........................................    57

                          Submitted Materials

Dr. Jane Lubchenco, a white paper on oceans and climate from the 
  Joint Ocean Commission Initiative..............................    19

 
  RISING TIDES, RISING TEMPERATURES: GLOBAL WARMING'S IMPACTS ON THE 
                                 OCEANS

                              ----------                              


                        TUESDAY, APRIL 29, 2008

                  House of Representatives,
            Select Committee on Energy Independence
                                        and Global Warming,
                                                    Washington, DC.
    The committee met, pursuant to call, at 1:36 p.m., in Room 
2318, Rayburn House Office Building, Hon. Edward J. Markey 
[chairman of the committee] presiding.
    Present: Representatives Markey, Cleaver, Sensenbrenner, 
and Blackburn.
    Staff present: Ana Unruh-Cohen, Stephanie Herring and 
Morgan Gray.
    The Chairman. Welcome, everyone. This is a hearing of the 
Select Committee on Energy Independence and Global Warming. We 
welcome you all to this very important hearing today.
    Over the course of the past year the Select Committee has 
investigated numerous impacts of global warming, from the 
melting of the Greenland ice cap, to the drying out of the 
Amazon rain forest, to the sliding of Alaskan villages into the 
sea. But the impacts on land are only the tip of the melting 
iceberg of a potential climate catastrophe. Oceans cover 70 
percent of our planet. And they are also feeling the heat of 
global warming.
    Throughout Earth's history, the ocean and the atmosphere 
have worked together to regulate the climate. The ocean serves 
as a sponge, soaking up excess carbon and heat from the air 
above it. Carbon dioxide dissolves in seawater, where plants 
and animals of all shapes and sizes convert it into their own 
protective coverings. Although many of these creatures are too 
small to see with the naked eye, the result of their work can 
be monumental, as witnessed by the White Cliffs of Dover and 
the ancient reefs that are now the mountains of west Texas. But 
the burning of fossil fuels has released increasing amounts of 
ancient carbon back into the atmosphere, and the oceans are 
overworked.
    During the past 40 years, the ocean has absorbed 90 percent 
of the estimated increase in the Earth's heat content from 
human activities. Like sweeping dirt under the rug, the oceans 
have protected us from feeling the full heat of global warming 
pollution. While many of the ocean changes may be out of our 
sight, we must not put them out of our mind.
    Global warming is causing an underwater heat wave, and the 
rise in ocean temperature impacts sea life at all depths. Many 
marine species thrive in only a narrow temperature range, and 
this heat stress forces them to move away from their 
traditional feeding and breeding areas in search of cooler 
waters. But not all marine life can simply shift with changing 
sea temperatures. Coral reefs have nowhere to go when the water 
around them heats up. Instead, they expel their life-giving 
colorful algae. Once reefs experience such a bleaching episode, 
they often never recover.
    Warmer oceans pose another threat, rising sea level. As 
water heats up, it expands. During the last 40 years, this 
expansion has contributed to 25 percent of the observed sea 
level rise. Rising sea levels already cause harm in coastal 
communities around the world, increasing their vulnerability to 
storms and threatening their drinking water. As global 
temperatures continue to rise, so too will sea levels, 
reshaping the contours of the world's coasts.
    Impacts on the ocean go beyond warmer waters. The rising 
carbon dioxide concentration in the air alters the fundamental 
chemistry of the ocean. As sea water absorbs more and more 
CO<INF>2</INF>, the water becomes relatively more acidic. This 
ocean acidification can prevent coral reefs from growing, stop 
shellfish from developing their protective outer layer, and 
inhibit the growth of tiny shell-forming plants and animals 
that form the foundation of much of the ocean food chain.
    The oceans have been taking on the burden of the planet's 
fever. Recent evidence suggests that oceans are losing their 
efficiency as a sink for the carbon we admit. If we reduce the 
ocean's ability to help us handle the global warming burden, we 
may face the impacts of global warming sooner than predicted.
    Today we hear from some of the world's foremost ocean 
researchers. They have seen firsthand many impacts from global 
warming that those of us above the surface will never see. 
Their testimonies will convey the consequences of our ``out of 
sight, out of mind'' strategy. Like an iceberg, most of the 
problem lies beneath the surface of the ocean. What lurks below 
holds serious consequences, and if we refuse to change course, 
we will run into a problem far larger than it first appeared. 
At this hearing we will demonstrate through our witnesses that 
we need a sea change in our energy and climate policy if we 
want to avoid an actual catastrophic change in our seas.
    And now I would like to turn and recognize the ranking 
member, the gentleman from Wisconsin, Mr. Sensenbrenner.
    [The statement of The Chairman follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Mr. Sensenbrenner. Thank you very much, Mr. Chairman.
    The topic of today's hearing is yet another reason why I 
believe technological development is one of the most crucial 
steps in the effort to confront global warming. Rising 
CO<INF>2</INF> levels and increasing temperatures will have an 
impact on the oceans. Some prospects are unnerving, like the 
dying of the coral reefs. Others can be approached through 
adaptation, such as a rise in sea levels.
    Energy is the life blood of our economy. Right now much of 
the energy that is generated creates CO<INF>2</INF>, but there 
already exists some technologies that generate energy without 
emitting CO<INF>2</INF> into the atmosphere. And if Congress 
acts wisely, there could be more on the way.
    One of these technologies is nuclear power, which generates 
great amounts of energy without producing any CO<INF>2</INF> 
whatsoever. Another technology that is on the horizon is carbon 
capture and storage, which has the potential to allow the U.S. 
to continue to use our vast coal reserves to generate energy 
but with only a fraction of the CO<INF>2</INF> emissions.
    Renewable energy technologies and gains in energy 
efficiency also stand to reduce carbon dioxide emissions. And 
we should strive to achieve all of these key technological 
improvements. Nuclear power and carbon capture and storage are 
technologies that not only would go a long way toward reducing 
CO<INF>2</INF> emissions, but they will also help ensure the 
energy security of the United States.
    And if the U.S. can't be secure in its energy supply, it 
certainly can't be secure in its economy. These days anyone 
pumping gas into their car knows this. That is why I don't 
support the array of policy proposals that unwisely seek to tax 
away carbon dioxide. This won't work, and it will slow the 
economy and eventually will end up being repealed.
    The production of CO<INF>2</INF> through energy production 
is a factor in global warming, but it is not the only factor. 
There are many natural sources of CO<INF>2</INF> that are 
emitted into the atmosphere. There are still some scientific 
questions about how large a role humans play in global warming. 
It raises some questions as to how much humans can do to stop 
these changes in the oceans and in the atmosphere. Even if by 
some divine intervention humans were able to completely stop 
emitting CO<INF>2</INF> tomorrow, some of these changes would 
still occur. Therefore, in some cases, adaptation will be the 
only reasonable choice. And that is something that people all 
over the world need to be ready to handle. The witnesses today 
will present very interesting and well researched testimony on 
the scientific topic, which I am sure will not only help 
educate all of us but will also help to strengthen my belief in 
the need for the development and advancement of energy 
technology.
    And I thank the Chair.
    The Chairman. The gentleman's time has expired.
    [The prepared statement of Mr. Cleaver follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    [The prepared statement of Ms. Blackburn follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. We will now turn to our witnesses.

  STATEMENTS OF SYLVIA EARLE, EXPLORER-IN-RESIDENCE, NATIONAL 
  GEOGRAPHIC SOCIETY; JANE LUBCHENCO, DEPARTMENT OF ZOOLOGY, 
  OREGON STATE UNIVERSITY; JOAN KLEYPAS, NATIONAL CENTER FOR 
  ATMOSPHERIC RESEARCH, BOULDER, COLORADO; AND VIKKI SPRUILL, 
           PRESIDENT AND CEO, THE OCEAN CONSERVANCY.

    The Chairman. Our first witness is Dr. Sylvia Earle, 
Explorer-in-Residence for the National Geographic Society. For 
decades Dr. Earle has set herself apart as a world-renowned 
oceanographer, a pioneering explorer, and as the first female 
chief scientist of the National Oceanographic and Atmospheric 
Administration. Her incredible work understanding and 
protecting our oceans in more than 7,000 hours conducting 
underwater research have earned her the title ``Her Deepness.'' 
She has been named a living legend by the Library of Congress 
and a hero for the planet by Time Magazine.
    We welcome you, Dr. Earle. Whenever you feel comfortable, 
please begin.

                   STATEMENT OF SYLVIA EARLE

    Ms. Earle. Thank you, Representative Markey, for hosting us 
here, all of you. We were asked, those of us who have been 
invited to comment, to address several questions. And let me 
start with that.
    The first was, what climate changes that we have personally 
observed. As one who splashes around in the oceans of the world 
as often as possible for a number of years, I have witnessed 
changes in the natural systems that have greatly changed over 
the period of time since I was a child. In projecting forward, 
if the pace of change continues, our children are not going to 
have much in the way of stable ecosystems in their future. 
Degraded systems are more vulnerable to climate change or any 
other factors, storms or diseases. And what we have caused in 
the last half century through our actions, what we put into the 
sea, what we take out of the ocean, is causing profound changes 
in the nature of the ocean itself.
    What are some of the initiatives we can take to conserve 
the oceans and work toward their long-term health? Well, look 
at what we are doing, what we have put into the ocean and what 
we are taking out of the sea, both in excess and both causing 
the destabilization of these natural systems, that if you 
really pull back and think about it, this is our life support 
system. The ocean governs climate and weather, governs climate 
and weather, churns out most of the oxygen in the atmosphere, 
governs the chemistry of the planet. It is the great 
thermoregulator for the Earth.
    I gave a talk recently at the World Bank, and I chose as my 
opening image to make my point an image that all of us have now 
taken for granted owing to the observations of astronauts; that 
is Earth from space, the blue Earth. And I said there it is, 
the World Bank. That is it. Those are the assets. That is the 
source of all that we hold near and dear, our economy, our 
health, our security, actually the substance of life itself.
    As to what we might be able to do about the situation, 
first I think the greatest concern about climate change is that 
many people aren't taking it seriously, and many others aren't 
taking it seriously enough. To deal with the problem, you first 
have to recognize that you have got one. And generally 
speaking, people are not acting or reacting as if we have got a 
serious problem. Well, we do.
    Most worrisome perhaps is the accelerated warming trend 
caused by greenhouse gases. And you, Representative Markey, 
have articulated most of what I would have otherwise said and 
done it very well, putting on the balance sheet the issues that 
we now face, including the acidification of the ocean and the 
warming, the consequences of this warming trend with sea level 
rise.
    But what can we do about it as a Nation? Well, one thing we 
can do is certainly to support policies to swiftly and sharply 
increase protection for natural systems on the land and in the 
sea. They are important for stabilizing the destructive trends 
that we are seeing. And of course, we should also start at the 
source of those destructive trends and modify our behavior. 
Certainly the upstream issues are important. Protecting forests 
benefits watersheds and rivers that inexorably flow into the 
sea. Healthier landscapes yield healthier seascapes.
    The United States can help by acknowledging the importance 
of methane in global warming and recognize the need to view 
climate change with an increased and enhanced sense of urgency. 
In a little submarine, I have been out off the coast of 
Mississippi a hundred miles, down 1,800 feet beneath the 
surface and seen methane bubbles burbling up out of the sea 
floor. And I have wondered what would happen with even a modest 
increase in temperature, which would enhance the release of 
methane, which would increase the rate of global warming with a 
great and classic feedback mechanism.
    Sadly, while the ocean provides the foundation for all of 
the planet's systems that I have already articulated, driving 
climate and weather and taking up and holding carbon dioxide 
from the atmosphere, shaping global chemistry, and providing 
home for most of life on Earth, the ocean nonetheless is being 
ignored by most of those who have been working on climate 
change issues of all things. It is baffling to me that with all 
the attention being given to climate change that you have to 
look pretty hard to find attention being given to what is 
happening to the ocean.
    Another good reason for having this hearing. One of the 
most important and positive things that this country can do to 
prepare for the consequences of climate change is to recognize 
the role of the ocean and take all possible measures to protect 
that vast but vulnerable system that governs the way the world 
works. The blue heart of the planet, the ocean presently is 
choked with plastic and other debris. Even more troubling is 
that other big problem with carbon dioxide, the acidification 
issue that you will soon hear more about.
    Yet there are many reasons for the United States to be 
optimistic, to consider the powerful influence that this 
country can have on the rest of the world by setting the right 
example as well as providing help in blunting the sharp edge of 
climate change impact. Many people who do know what is going on 
feel helpless and, therefore, hopeless.
    There is time, but no time to waste. The next 10 years may 
be the most important in the next 10,000 years because of what 
we do or what we fail to do concerning climate change. Never 
again perhaps we will have a chance. And those of you who 
represent this country have a unique opportunity to promote 
actions that will protect all that we hold near and dear and 
that, again, are our wealth, our health, our security, and not 
only our lives but all the lives to follow. Thank you.
    [The statement of Ms. Earle follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. Thank you, Dr. Earle, so much for your 
testimony.
    Our next witness is Dr. Jane Lubchenco, who is a professor 
at Oregon State University. She is also co-head of the 
Partnership for Interdisciplinary Studies of Coastal Oceans, a 
team of scientists that studied the marine ecosystem along the 
West Coast. She served on the Pew Oceans Commission, which made 
comprehensive U.S. ocean recommendations in 2003. And she now 
works with the Joint Ocean Commission Initiative that seeks to 
implement those recommendations.
    For her work, Dr. Lubchenco has received numerous awards, 
including eight honorary degrees and a MacArthur genius 
fellowship.
    So we welcome you, Dr. Lubchenco. Whenever you are ready, 
please begin.

                  STATEMENT OF JANE LUBCHENCO

    Ms. Lubchenco. Chairman Markey, Ranking Minority Member Mr. 
Sensenbrenner, members of the committee, it is a great pleasure 
to be here with you today. Thank you very much for the 
invitation. As you mentioned in your opening remarks, oceans 
have indeed been out of sight, out of mind. And it is nice to 
have an opportunity for them to be front and center. I hope 
this is just the beginning.
    My name is Jane Lubchenco. I am the Wayne and Gladys Valley 
Professor of Marine Biology at Oregon State University. And as 
you mentioned, I had the pleasure of serving on the Pew Oceans 
Commission, and now on the Joint Ocean Commission Initiative. I 
am here today as a marine scientist to describe some of the 
impacts of climate change on oceans and some of the 
implications that that has for us. I respectfully request that 
my PowerPoint images which I will use and a white paper on 
oceans and climate from the Joint Ocean Commission Initiative 
be entered into the record.
    The Chairman. Without objection, it will be included.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Lubchenco. Thank you very much. I intend to focus my 
remarks both on impacts and on implications today. And with 
respect to impacts, I want to talk about two different 
categories of impacts. One are those that have been predicted 
and in fact are happening. That includes warmer oceans. Sea 
level temperatures are rising around the world in every single 
ocean basin. Sea level is rising. And as Dr. Kleypas will 
describe, oceans are becoming increasingly acidic. And that has 
huge consequences for much of life in oceans and, in turn, for 
us.
    I also wish, though, to focus on some surprises that are 
playing out that we suspect are related to climate change. And 
they really underscore how little we really understand about 
how the oceans work and how they will change in the future as 
these other predicted changes come about.
    There is no doubt that ocean temperatures are increasing 
and that sea level is becoming more acidic and ocean levels are 
rising. It is worth noting that all of these are happening 
faster than originally predicted. Warming and acidification are 
particularly serious threats to marine life and to the benefits 
provided by ocean ecosystems. Rising sea level is a very real 
problem for many people in, especially in coastal communities 
and for coastal habitats. But by and large, on balance, the 
warming temperatures and increasing acidity are far greater 
threats for most of life in the oceans.
    Turning now to consideration of some of the surprises that 
we are seeing in oceans, I draw your attention to the western 
sides of most of the continents in the world that are 
characterized by what are called coastal upwelling ecosystems. 
These ecosystems are particularly rich. They represent only 1 
percent of the surface area of the oceans, but they have 
historically provided 20 percent of our global fisheries. Many 
of these systems are changing dramatically. And I would like to 
describe some of the ways that we are documenting.
    The systems depend on winds that blow along the coast 
toward the equator. This in turn pushes surface waters away 
from the coast and brings up cold nutrient-rich water, which is 
why these systems are so incredibly productive. Off the Pacific 
northwest coasts off Oregon and Washington, we have a seasonal 
upwelling that appears in the summertime. It is intermittent, 
so it is upwelling alternating with downwelling, and our rich 
systems are legendary.
    What we are seeing is a very significant perturbation of 
this normal upwelling, specifically the appearance of new dead 
zones. Now, these are different from the dead zones that you 
have heard of in the Gulf of Mexico and elsewhere around the 
world that are driven by runoff of nutrients from the land. 
This is a different type of dead zone. It is caused by changes 
in the coastal winds and in ocean conditions, both of which we 
believe are likely related to climate change.
    We have seen a dead zone off the Pacific northwest coast 
now 6 years in a row; 2006 was the longest lasting. It was 4 
months long. It occupied as much as two-thirds of the water 
column. This is a slice of the ocean where you see in colors 
different amounts of dissolved oxygen. On the far right of the 
screen is the land. And the bottom shows the coastal--the 
continental shelf getting deeper and deeper. And as much as 
two-thirds of the water column, the blues in here, are in fact 
too low in oxygen for most marine life to persist, and so they 
suffocate.
    This image shows where the dead zone is. In blues and 
purples is the dead zone off the coast of Washington and Oregon 
in 2006. And you can see it is a very significant fraction of 
that shore line. Our research teams have in fact been working 
hard to figure out what is happening and why. We have pieced 
together a story that suggests that changes in the coastal 
winds and ocean conditions are the culprits here. There has not 
been a change in the runoff of land, so it is a different type 
of dead zone. But changes in ocean conditions and wind 
conditions are well described. We have images from remotely 
operated vehicles that have been driven along the sea floor 
showing what the sea floor looked like in normal years, for 
example in 2000, and then the devastation that has happened 
since then in 2002 and also 2006, the images that you see on 
the screen, with just massive numbers of dead crabs, dead sea 
stars, dead urchins on the ocean floor.
    I had a movie to show you, but I am not going to have time. 
I want to switch quickly to the implications of this. Ocean 
ecosystems are already at serious risk. Many of the services 
that they provide to people are being threatened by 
overfishing, destructive fishing gear, runoff of nutrients, 
chemical pollution, and coastal development. The things that 
people want from oceans are in fact at risk. And if society 
wishes to avoid the most serious consequences that climate 
change is already bringing and that will get worse, we need to 
do a number of things: reduce greenhouse gas emissions very 
significantly first and foremost; secondly, avoid mitigation 
quote-unquote solutions that trigger serious unintended 
consequences; third, as you mentioned, prepare to adapt to 
changes.
    But I believe we need to expand the way we think about 
adaptation. And it is not just adaptation of human systems, but 
in fact, we need to think about creating the conditions for 
nature to be able to adapt to the inevitable warmer waters and 
more acidic waters. If we have more funding for scientific 
research and monitoring, we can do a better job of helping to 
figure all this out. And of course, educating citizens is 
incredibly important.
    Strategies to minimize impacts of climate change are both 
to reduce stresses that can be controlled and to protect as 
much biodiversity as possible. So, in summary, Mr. Chairman, 
oceans are in very serious trouble. Climate change will 
exacerbate them. We understand them relatively poorly. We need 
to reduce emissions. We need to make protecting ocean 
ecosystems one of the highest priorities, redefine adaptation 
to include creating the conditions for nature to adapt, 
increase funding, and educate citizens. Thank you very much.
    [The statement of Ms. Lubchenco follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Thank you so much, Doctor. We very much very 
much appreciate your testimony.
    Next we are going to hear from Dr. Joan Kleypas, an ocean 
scientist at the National Center for Atmospheric Research. 
Since joining NCAR in 2002, Dr. Kleypas has become a leading 
voice on the impacts of climate change, on the health of oceans 
and coral reefs. Her work has been featured in BBC News, 
Science magazine, Science Daily. A real expert in the field.
    We welcome you, Doctor. Whenever you are ready, please 
begin.

                   STATEMENT OF JOAN KLEYPAS

    Ms. Kleypas. Thank you, Chairman Markey, Ranking Member 
Sensenbrenner, and members and staff of the Select Committee.
    Thank you for holding this hearing on such an important and 
urgent issue. And I will reiterate Dr. Earle's comment; we have 
a serious problem.
    I am a scientist at the National Center for Atmospheric 
Research, and I have specialized on coral reefs for about 20 
years. I thank you for this opportunity to discuss two serious 
consequences of climate change for coral reefs, ocean warming 
and ocean acidification.
    Since the 1950s, the tropical oceans have warmed on average 
by more than half a degree Fahrenheit. This warming has caused 
a phenomenon called coral bleaching. Bleaching happens when a 
coral expels a colorful algae that lives within its tissues and 
provides that coral with most of its energy. Bleaching is often 
fatal. Coral bleaching has already destroyed about 10 percent 
of reefs worldwide and has weakened many more. The projections 
of bleaching patterns indicate that if ocean warming continues 
along its current path, we will lose this ecosystem. We hope 
that corals can adapt to the warming, but there is really very 
little evidence that they can do so.
    The other problem I want to raise is something known as the 
other carbon dioxide problem. This is ocean acidification. The 
concept of ocean acidification can be explained with a bottle 
of carbonated water. So that water was carbonated simply by 
adding CO<INF>2</INF> or carbon dioxide to it. And carbonated 
water is more acidic than just regular tap water. And anybody 
can test this with litmus or pH paper. The oceans have already 
absorbed about a third of the carbon dioxide released into the 
atmosphere by man's activities. And this really is a natural 
gift, because it lessons the impact of climate change, but it 
is changing ocean chemistry. Although we can't feel the change, 
we can measure it, and measurements are confirming that ocean 
acidification is indeed happening.
    So there are two main ways that ocean acidification affects 
marine organisms. First it can stress the organisms 
physiologically, such as increasing its respiration rate, lower 
reproduction, and lower survival. And second, what we know the 
most about, too, is that acidification impacts the ability of 
marine organisms to secrete their skeletons or their shells. 
This includes many important groups of marine organisms, from 
microscopic algae at the base of the food chain to familiar 
organisms like clams, starfish and corals.
    Corals are the best studied of these. And there is strong 
evidence that their calcification rates will decline by 10 to 
50 percent within the next 40 to 50 years. They simply won't 
grow as fast or they will grow more fragilely. And you can 
think of it as osteoporosis.
    This slide shows a dramatic example of a coral cultured in 
normal versus acidified sea water. Ocean acidification not only 
slows skeletal formation, but at some point, it actually 
dissolves it. So what does this mean for the coral? Organisms 
that produce shells do so for a reason, for protection, for 
example. Even if this naked coral in this slide could somehow 
survive in the real world, it would be living as an anemone, 
not as a coral, and it wouldn't be producing coral reefs.
    In fact, reefs themselves exist because corals and other 
organisms build the reef faster than it is eroded. Ocean 
acidification attacks a reef's structure itself by increasing 
the rate at which it dissolves. And if reefs erode away, we 
will lose many of the valuable services that they provide. And 
that includes high biodiversity, fisheries, and shoreline 
protection.
    So what can be done about ocean acidification and warming? 
Obviously, reducing greenhouse gas emissions tackles the root 
cause of both. And we need to reduce those emissions 
aggressively. Given that coral bleaching is already so 
widespread, we may already be above the threshold for that 
ecosystem. For acidification, certainly we need to find a way 
to keep carbon dioxide levels below 500 parts per million 
because, above that level, some reefs will start to erode away.
    It is worth noting here that geo-engineering solutions to 
reduce warming, such as putting dust into the atmosphere or sun 
shades in space, do not solve the problem of ocean 
acidification because those solutions don't reduce carbon 
dioxide concentrations in the atmosphere. I want to also stress 
that ocean acidification affects not just coral reefs, but it 
affects all marine ecosystems. And I really feel that this may 
be the greatest environmental threat that we face this century. 
It is a new issue, and we have our hands full just trying to 
understand the scope of the problem. We need to know how much 
carbon dioxide is too much carbon dioxide, but we also need to 
know what we can do to help marine ecosystems make it through 
this difficult time.
    So I urge you, first, to take on the task of reducing 
greenhouse gas emissions and, second, to pass the FOARAM Act, 
which is an act to increase research on ocean acidification. 
And I just want to sign off on a comment that, 25 years ago, we 
thought that global warming was going to be good for reefs 
because, like warm water, they would expand. Well, now we, you 
know, now we know about coral bleaching. We know about ocean 
acidification. Climate change is not good for coral reefs. And 
what is at stake if we lose them is the most biodiverse 
ecosystem of the ocean. It is one that supports major fisheries 
and economies of the U.S. States and territories. It protects 
many shorelines. And of course, this is a masterpiece among 
God's creations.
    Thank you very much, and I am happy to answer questions.
    [The statement of Ms. Kleypas follows:] 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Thank you, Doctor, very much.
    And our final witness is Ms. Vikki Spruill, who is the 
president and CEO of The Ocean Conservancy, where she leads the 
organization's efforts to promote healthy and diverse ocean 
ecosystems. She was also recently appointed to the Pew Fellows 
Advisory Committee. We welcome you.
    Whenever you feel ready, please begin.

                   STATEMENT OF VIKKI SPRUILL

    Ms. Spruill. Thank you, Chairman Markey, Ranking Member 
Sensenbrenner, and the committee, for your leadership in having 
this hearing. The committee has already done such a service to 
the country by moving us forward on the urgent issues of energy 
independence and climate change. Your effort today to focus on 
the ocean, the place where it all starts, and yet is often 
overlooked, is of enormous importance. It is a real honor to be 
on such a distinguished panel of women. I had to say it.
    The ocean is essential to the health of everything on the 
planet, including our own. It covers over two-thirds of the 
Earth. It drives our climate. It provides much of the food we 
eat and the oxygen that is essential for our very survival. It 
is a source of renewal for the human spirit.
    Fundamentally, as Sylvia says, the ocean is the life 
support system for our planet. Seafood is a major staple, in 
some cases the staple in this country and elsewhere. In the 
U.S., the contribution of the seafood industry exceeds $50 
billion per year. A healthy ocean contributes to a healthy 
economy. The President's Commission on Ocean Policy reported 
that coastal communities generated over 10 percent of GDP. 
Three-quarters of those associated jobs are in ocean tourism 
and the recreation sectors alone.
    The ocean, of course, also moderates our climate, absorbing 
over a third of the greenhouse gases that we produce. The 
dynamics of the ocean and the atmosphere are so tightly linked 
and so easily overlooked that we ignore the ocean's role in 
climate at our own peril. In 2005, millions in the U.S. and in 
the Caribbean experienced firsthand and quite tragically how 
the ocean's heat engine can drive violent storms, most 
dramatically, of course, Hurricane Katrina. Over 2,000 lives 
were lost and over $100 billion in damage occurred during that 
devastating season.
    Fundamentally, the ocean is the basis of our ecosystem, 
with an incredibly diverse web of life that supports the 
planet. Of course, we are most familiar with the grand 
diversity of life at the margins, on coral reefs and in tide 
pools, where many of us saw our first mussels and sea stars, 
and maybe even a hermit crab looking back at us. The truth is 
that our essential and diverse ocean ecosystems cannot protect 
us unless they are healthy and resilient. Harmful impacts are 
exacting a toll on this web of life that frankly we can no 
longer afford to pay. Ocean Conservancy is working to make the 
ocean healthy by fostering sustainable fisheries, by protecting 
marine wildlife, and putting in place management plans for 
State and Federal waters, and preserving magnificent ocean 
places that we like to call ``Yosemites undersea.''
    All of this work is vitally important, but the most 
sweeping and devastating threat to the ocean is global climate 
change. The planet has warmed in the last 100 years by nearly a 
degree. And over 80 percent of the excess heat produced by the 
greenhouse effect has already been absorbed by the ocean. Even 
if carbon emissions are substantially reduced, ocean warming 
will continue to increase for decades. Two or more degrees of 
warming, which is quite possible, will devastate many coastal 
communities, kill the world's coral reefs, and result in mass 
extinctions of marine life. Think about it, when our own 
temperatures rise 2 degrees, we have a fever.
    So our ocean is sick. And if you are an Alaskan native 
whose people have lived in harmony with the Arctic Ocean for 
over 10,000 years and your village is falling into the sea, you 
know that climate change is happening and that our ocean is 
sick. If you are a fisherman in the Caribbean, where up to 90 
percent of corals bleached and died in 2005, then you don't 
doubt that climate change is actually happening now.
    The ocean is really where the rubber meets the road with 
climate change. It isn't decades of projections we are dealing 
with or ominous warnings about the future of the ocean. It is 
now. This is happening now. And if you detect a sense of 
urgency in my voice, it is because I believe that protecting 
our ocean from the onslaught of climate change is one of the 
greatest challenges of our lifetimes; 2008 is the ``year of the 
reef,'' and I commend the committee for drawing attention to 
this fragile, yet critical ecosystem.
    Coral reefs have long been threatened by over-exploitation 
and pollution, and now climate change adds another one-two 
punch, maybe the knockout punch for an already damaged system. 
Ocean warming has already increased coral bleaching and is a 
major threat to reefs worldwide. Let me put it this way, in 
1998, we lost 16 percent of the world's coral reefs in a single 
year. If we lost 16 percent of the forests in the world, that 
would be the equivalent to losing all of the forests in North 
America in a single year.
    Unless we change course, coral reefs, the entire ocean, and 
all of mankind are at the mercy of climate change. There are 
two essential ways we must address climate change. First, of 
course, is mitigation. We must substantially reduce greenhouse 
gas emissions, and we must do that now. And the second is 
adaptation. Simply meaning we have to strengthen the health and 
resiliency of our ocean ecosystems so they can better 
anticipate and adapt to the increased stresses of climate 
change while we work to reduce emissions. It is as if we have a 
patient who has already been suffering from the flu and high 
blood pressure and now has been given a diagnosis of serious 
but treatable cancer. The plan for recovery involves curing the 
patient of the flu and then taking some medication and adapting 
your lifestyle to lower the blood pressure. But of course 
fighting the cancer, in our case global climate change, is the 
goal. But the way to do that is to first make the patient 
healthy and strong to take on the much bigger challenges ahead.
    To save our coral reefs, we must adopt adaptation 
strategies that build resilience and restore ecosystem 
function. We need to be protecting reefs from unsustainable 
fishing practices. We need to be reducing the inputs of 
pollution, such as fertilizers and sewage and sediments, and we 
need to be implementing a more comprehensive and stronger 
system of coral reef protected areas.
    I know this committee and this Congress is working hard on 
mitigation solutions trying to cure the disease. I would 
respectfully urge you to follow your principles that you set 
forth last week on Earth Day and put as much effort into 
adaptation strategies to lessen the damage and pain as we seek 
to cure the patient. We simply have to do a better job of 
sustaining the life support system that sustains us. Our oceans 
are in trouble. And that means so are we. That is the sea 
change we are starting at Ocean Conservancy. And thank you for 
propelling that change forward with your leadership.
    [The statement of Ms. Spruill follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. Thank you, Ms. Spruill, very much.
    And we thank all of our witnesses.
    And Ms. Spruill raises a very good point, that we have four 
brilliant women who are testifying here today simultaneously. 
And that is what happens when you have two women Ph.D.s in 
science, Dr. Ana Unruh Cohen and Dr. Stephanie Herring, plan 
the meeting. Somehow or other they find four more brilliant 
women to all give the testimony. So that is kind of the theme 
for today's hearing, appropriately so.
    So let me begin with you, Dr. Earle. Just give us your 
summary of how your views have changed, how the world's views 
have changed of the science of the seas over the last 30 or 40 
years. Where were we then, and where are we today in terms of 
the way in which we should view the seas, their health, and the 
danger to the planet?
    Ms. Earle. When I was a child, there was a widespread view, 
that many still hold that the ocean is infinite in its capacity 
to rebound no matter what we take out or whatever we put in. 
The best way to get rid of something was to deep six it, throw 
it into the sea. We thought that our job was to find new and 
better ways to extract wildlife out of the ocean, going back to 
the 1960s and 1970s. And some still hold to that view.
    The importance of wildlife in the ocean was primarily 
viewed as a commodity, protein from the sea. I think we have 
learned a great deal--actually, we have learned more in the 
last half century than during all preceding human history about 
the ocean, about a lot of things, but certainly about the 
ocean. We didn't even know, and Rachel Carson was not even 
aware of the mountain ranges that run like giant backbones down 
the Atlantic, Pacific, and Indian Oceans when she wrote, ``The 
Sea Around Us,'' in the early 1950s. We did not know at that 
time that there was life from the surface of the ocean to the 
greatest depths. We certainly didn't appreciate the profound 
impact that the living systems, particularly the microbes, have 
on all of us, on the nature of the ocean, the little guys that 
do the heavy lifting with respect to churning out oxygen and 
taking on carbon dioxide.
    We now know much that should alert us to the importance of 
taking care of the ocean that takes care of us. We certainly 
would not like to see the demise of rainforests. We would feel 
the loss if something devastated them even more than they have 
been devastated. But in fact, if they did go, if we still had a 
healthy ocean, life would probably continue. But if we did away 
with the ocean or seriously impacted the health of the ocean, 
everything, everything would be impacted. The ocean really 
rules the world. And one of the baffling things that strikes me 
today is that, although that knowledge has been around for a 
while, it has been growing over the last half century, but we 
still don't take the ocean seriously enough. And it is no more 
apparent than in the climate change issues where great 
attention, at least up to the present time, has been focused on 
the atmosphere. But as all of us have pointed out, there are 
links, inextricable links to the sea. In fact, the ocean really 
is the governor of climate and climate change.
    The Chairman. Thank you.
    Dr. Lubchenco and Dr. Kleypas, what has your research shown 
about the pace of climate change when you kind of compare it 
with geologic history? What is happening now as you look back 
over the whole history of the planet?
    Ms. Lubchenco. Mr. Chairman, the history of Earth is a very 
dynamic history. We have seen many, many changes over 
millennia. And what is striking about the changes that have 
been happening with respect to climate change over the last 
century is the rate of change. The changes are so much faster 
than the background levels. In many cases, the levels of some 
greenhouse gases exceed historic or previous levels, but it is 
the rate of change that is really particularly striking. Even 
knowing that, many of the models, the early climate change 
models that were created have predicted rates of change that 
reflect our current measurements. And even those predictions 
have been too low. We are seeing much faster changes than even 
our best models have predicted.
    One of the best examples of that is the melting of ice in 
the Arctic, the floating sea ice that has always created a very 
dynamic, rich habitat and upon which the peoples of the Arctic 
have always depended as well as the rich marine life there. And 
that area is warming so much faster than was originally 
predicted. The models are just continually revised and revised. 
The same is true of ocean acidification. It is happening faster 
than we had initially thought that it would. And I believe that 
this theme is one that we haven't yet sufficiently paid 
attention to.
    In light of this knowledge, we need to be even more 
conservative in our use of natural resources and even more 
aggressive in our attempts to slow down the rate of climate 
change.
    The Chairman. Dr. Kleypas.
    Ms. Kleypas. I would like to key in on a couple of things, 
the rates of change and adaptation. We often use the term 
adaptation a lot, particularly in terms of human adaptation. 
And we are an extremely adaptable species. But most of these 
organisms that are in the ocean have not seen these kind of 
changes, either the magnitude or the speed at which they are 
changing, for millions of years. I think the last time we have 
seen an ocean acidification event was about 55 million years 
ago. That was only 10 years after the dinosaurs were wiped out. 
And even then, that rate of change was probably not as fast as 
what we are seeing today. And during that time period, there 
were a lot of big changes that happened in the ocean that can 
be attributed to ocean acidification. So adaptation, we can 
count on that for a lot of humans, but I don't think we can 
expect these ecosystems to adapt alongside us. Not unless we do 
a lot of things to help them.
    The Chairman. You have heard these concerns, Ms. Spruill. 
How can we explain this to the public? What is your 
recommendation in terms of having the fire alarm sound so that 
we ensure that this does not result in catastrophic 
consequences?
    Ms. Spruill. Thank you, Mr. Chairman. I am not a 
researcher. I consider myself a translator and a communicator. 
And I represent a constituency of people across the country who 
are very much hungry for change. And I think today the good 
news is we have got a combination of increased awareness and 
this growing sense of urgency and momentum. We really have a 
golden opportunity to act.
    There are actually three things that I think we would want 
to encourage Congress to do. First, of course, is to make that 
link between climate change and oceans. That process has 
already begun today. And that means making adaptation 
strategies part of every climate change bill passed by 
Congress. The second thing is, there are a number of good bills 
already in the pipeline: Oceans 21, which passed subcommittee 
just this past week; the Coral Reef Protection Act; the Marine 
Sanctuaries Act. All of these bills, if passed, will help to 
provide these adaptation strategies that you have heard about 
today. And then, third, I would say, to continue with my 
medical analogy, first we need to be doing no harm. We need to 
be looking at some of these technological solutions. They 
obviously have a place. But we need to be moving carefully 
towards any proposals and make sure that the cure isn't 
actually worse than the disease.
    The Chairman. Thank you.
    Dr. Earle, why don't people understand the relationship 
between the ocean and the planet? What do you attribute that 
huge gap to? How can such a huge percentage of the Earth's 
surface be something that is just not a part of public 
consciousness?
    Ms. Earle. It is the great mystery of the sea. I had 
occasion to ask that very question to Clare Boothe Luce once. 
And she looked skyward, and she said, well, looking at the big 
puffy clouds, heaven is there and you know what is in the other 
direction. And whatever the reason, because perhaps we are 
terrestrial by nature and only in fairly recent times have 
human beings acquired access to the sea, effective access to 
the sea, but we are still beginning. SCUBA divers go down maybe 
a 100 feet, 150 feet perhaps if they push the edge a bit. But 
we are still exploring the ocean. Less than 5 percent of the 
sea has been seen at all, let alone explored. And because of 
our attitude that the ocean is a place to throw things away, or 
it is a place just to--well, you think of fish, fish are to 
eat, right? Without thinking that fish are to the sea as birds 
are to the land, they are components of our life support 
systems. They are as, as has been said about components of the 
land, the nuts, the bolts, the cogs, the wheels that make the 
ocean work. And it is not just the fish, it is all of the 
diversity of life in the sea. We need to respect fish alive, 
not just fish dead. And coral reefs alive, not just ornaments 
for your shelf. We need to think about the ocean with a new 
attitude. And it is happening, but it needs to happen faster 
than it presently is.
    The Chairman. Which organisms, which ecosystems are most 
vulnerable right now to this acceleration of climate change?
    Ms. Earle. I can answer a bit, but we all can weigh in. The 
acidification is comprehensive in its impact. We can look at 
coral reefs because we are familiar with them, and we don't see 
the tiny creatures, the coccolithophores, the foraminifera, the 
little calcarea-shelled creatures that make up much of life in 
the sea and that drive much of the ocean chemistry. And we 
better pay attention. And it is important. With every breath we 
take, it is important to understand this. And it is not rocket 
science, as they say. This is--this is ocean science, which is 
really a lot of fun as well as really important.
    The Chairman. Dr. Lubchenco.
    Ms. Lubchenco. Mr. Chairman, I believe that Sylvia has 
given an answer I would agree with. Relative to warming, 
certainly those communities, those ecosystems that are in the 
tropics and those at the poles appear to be most vulnerable. 
But every community is vulnerable to the increased acidity of 
oceans. And that is going to be one of the biggest challenges 
facing all of us. Because of its consequences at all different 
levels, from the microscopic plants through the filter feeders, 
to the herbivores, predators, on up the food web. Anything with 
a shell or a skeleton. And so crabs, lobsters, sea stars, 
urchins, microscopic plants, mussels, oysters, snails, all of 
those are going to be affected by this acidification. And those 
critters are everywhere.
    The Chairman. Dr. Kleypas, are there particular areas of 
the ocean that we should prioritize for protection?
    Ms. Kleypas. Thank you, Chairman Markey.
    I would say that the shallow oceans are where most of the 
life is. That is where the primary production occurs, where 
they use sunlight to create the bulk that feeds the rest of the 
ocean. So the shallow oceans I would say are the place of 
urgency right now. And it does extend from the tropics to the 
poles. That would be my answer.
    The Chairman. Ms. Spruill, as Congress considers 
legislation to reduce our global warming pollution, what other 
policies in your opinion are necessary to help protect the 
oceans from climate change?
    Ms. Spruill. Well, I think I named three that are actually 
already in the pipeline. And a little push from this committee 
would go a very long way. Oceans 21, I think----
    The Chairman. Oceans 21. Why don't you just outline a 
little bit of what each one of these bills does and why they 
are important to pass?
    Ms. Spruill. So, Oceans 21 really creates a national ocean 
policy and then a mechanism for implementing that policy across 
a variety of Federal agencies. It is really the coordinating 
function that we need across so many Federal agencies. This 
grew out of both Presidential commissions. And as you 
mentioned, Dr. Lubchenco was on the Pew Commission. She can 
maybe talk a little bit more about the genesis of that 
legislation.
    Then there is the Coral Reef Conservation Act, which passed 
the House and awaits Senate floor action. So these are bills 
that are quite far along in the pipeline. That promotes 
community-based conservation and provides tools at the local 
level, a number of these adaptation strategies that we have 
discussed. And it empowers NOAA to respond to damaged reefs, 
again another adaptation strategy if you will.
    And then there is the National Marine Sanctuaries Act, 
which certainly has the promise at least of protecting more of 
our ocean and making it more resilient, as we have already 
discussed, in the face of unforeseen climate change.
    The Chairman. Thank you. Dr. Lubchenco, Ms. Spruill 
referred to it; how successful has the Federal Government been 
in implementing the recommendations from the commission?
    Ms. Lubchenco. We had hoped to have seen much more progress 
by now. I think hope still remains that Congress----
    The Chairman. What is the obstacle in your opinion?
    Ms. Lubchenco. I believe that it is part of what we have 
been talking about at these hearings, that oceans are not on a 
lot of people's radar screens. And in the press, of so many 
other important issues, it is sometimes hard to break through. 
And so the reality that oceans are in trouble and that there is 
real urgency has not penetrated as far as it needs to go.
    It is also the case that I think there are vested interests 
in sort of current arrangements. Many of the recommendations 
call for much more comprehensive ways of having different 
agencies, different departments be able to work together 
collaboratively and to work toward much more comprehensive 
integration of ocean decisions. That is always a tough sell.
    Ms. Lubchenco. I believe that we are making some good, 
significant progress, but there is just a lot more to be done.
    The Chairman. Can we just go down and explain--each one of 
you give us one example in your opinion of what happens to the 
ocean that affects those of us who are living on land? I think 
that kind of will help to dramatize what the storyline is for 
us if we continue to ignore the oceans as a part of this story.
    So we will begin with you, Ms. Spruill. Do you have one 
example you would like to use?
    Ms. Spruill. I have a list of examples, Chairman Markey, 
and I am going to include them in the context of climate 
change, because I think, you know, that is where we are going 
to feel the impacts first, and obviously, coastal communities 
will be influenced.
    We are going to see changes in fisheries. There is no doubt 
about that. Climate change is going to disrupt availability. It 
is going to raise seafood prices. There are human health 
considerations. Human health is predicted to decline due to 
climate change-related causes.
    Food and water shortages. We have already seen some of this 
brought about because of areas affected by drought.
    Insurance rates. We are already seeing rates affected 
because of extreme weather events such as hurricanes.
    Our infrastructure needs are only going to increase as sea 
levels rise. New reports have been released that show that, you 
know, States are going to need to be spending more money on 
roads and on homes and on airports, and of course, these 
coastal communities are going to feel these losses most in the 
coming decades.
    The Chairman. Dr. Earle, do you have a vivid example of how 
we are affected?
    Ms. Earle. I think it is important to first understand the 
basic process and then see how the changes are influencing 
those processes. So think about every breath you take. Where 
does the oxygen come from? 20 percent of the atmosphere is 
oxygen. 80 percent or so is nitrogen. There is just enough 
carbon dioxide to make the green plants do their thing to 
produce more oxygen through photosynthesis and, thus, drive the 
great food chains. That is the way it has been now for many 
millions of years. It was not always that way; the earth was 
not always hospitable for the likes of us. I think that is 
something many people need to put on the balance sheet that 
what we have today represents the distillation of all preceding 
history.
    Literally, hundreds of millions of years have led us to a 
planet that works in our favor. There was a time going way back 
before dinosaurs when there was not 20 percent oxygen in the 
atmosphere but where today there is. We have the power, the 
capacity to change that through what we are doing to the 
engine, the green engine in the ocean as well as on the land 
that produces that oxygen.
    So, first, understand how the system works, and then 
realize we are really messing that system up. It is also true 
with the water you drink. People think it comes out of the 
spigot, water does, or you get it in little bottles when you go 
to the store. Most of earth's water, 97 percent, is in the 
ocean. How does it get into the bottles, into your sink, 
whatever? It goes up into the atmosphere as clouds, mostly from 
the ocean. Take away the ocean, and you just eliminate the 
water system. So it is to first understand that and then to 
realize what we are doing that is disrupting that system.
    The Chairman. Back to you, Dr. Kleypas.
    Do you have an example?
    Ms. Kleypas. I think, to play on what Sylvia said, you 
know, these ecosystems are not separate. You do not just lose 
one ecosystem; you are going to have a cascading effect.
    The example I had for coral reefs is that they provide the 
environment where we can have mangroves and seagrass beds. 
Those are very good fishing areas. So, if we lose coral reefs, 
we lose a lot of the other ecosystems that are intertwined with 
that ecosystem.
    I agree with you. It is hard to explain to someone who has 
lived in Kansas his entire life who maybe has never seen the 
ocean in order to really make those links. That is where we 
fail, in the education. If we lose our economies and our 
coastal regions, which really depend on the oceans, we are 
going to affect all of the cities in the U.S. and elsewhere. It 
is hard to imagine that economic impacts on the coast are not 
going to permeate the rest of the economy.
    The Chairman. Dr. Lubchenco, do you have anything to add?
    Ms. Lubchenco. When I was on the Pew Oceans Committee, Mr. 
Chairman, we were told something that I actually had not 
thought about, and that was that half of America lives on the 
coasts. The other half goes there to play. I think that that is 
a nice touchstone.
    As the Pew Oceans Commission moved around from one city to 
another, to another, all along the coastal margins, and also in 
the heartland, I asked Americans exactly the question that you 
posed to us: What do you want from oceans? What do you care 
about oceans? Why should we be thinking about changing 
anything?
    What I heard from them were five things. It boiled down to 
five things: Americans told us they wanted safe seafood, 
healthy seafood, number 1; number 2, clean beaches; number 3, 
abundant wildlife; number 4, stable fisheries with no more of 
this boom and bust and closures; and fifth, vibrant coastal 
communities.
    Now, I think that is a very nice summary and synthesis of 
the way Americans think about oceans, and I think that they 
truly understand that they appreciate them; they want these 
things. What they do not understand is that all of those things 
depend on healthy, productive and resilient ecosystems, and 
that is not what we are seeing now. We are seeing serious 
degradation and disruption and depletion. Climate change is 
going to exacerbate that very, very seriously.
    The Chairman. Well, let me ask you this then. Now you have 
outlined the problem, each one of you. Let us talk about 
solutions.
    Do any of you have an example that you would like to give 
us of something that is happening that is very positive that 
you can point to that would not have been happening 10 years 
ago? In giving that answer, are you optimistic that we can 
build on your example to find a comprehensive solution to the 
problem?
    Let me go back through you again, Dr. Earle.
    Ms. Earle. I think one of the greatest causes for hope is 
our expanding level of communication, that any little kid can 
look at the world through the eyes of an astronaut now. Hold 
the world in your hands when you pull up Google Earth, for 
heaven's sake. There it is, the whole world. You can spin it 
around. You can see your backyard. You can see your neighbor's 
backyard.
    The Chairman. Be careful.
    Ms. Earle. Uh-huh. Maybe someday, before long, you will be 
able to take dives in the ocean and will be able to see what is 
going on in the ocean, not only to look at the blue blob that 
is now the surface but to be able to actually see what is 
actually going on below--the good news and the bad news. I 
think that is not only good for kids; I think that is good for 
all of us to be able to have new ways to see how we are 
connected to the rest. I am optimistic, in part, because there 
is a growing concern that people--kids and all of us--are 
increasingly detached from nature, and there is some effort to 
do something about that--the last child in the woods, no child 
left inside, these initiatives.
    The Chairman. Beautiful.
    Ms. Earle. While you learn your A, B, Cs and your 1, 2, 3s, 
learn that you are connected to nature and that the ocean 
dominates nature. Those things are beginning to happen. We need 
to do much more to accelerate those things.
    The Chairman. Dr. Lubchenco.
    Ms. Lubchenco. Mr. Chairman, I had the pleasure of serving 
on the Oregon Governor's Advisory Group, the Citizens' Advisory 
Group on Global Warming, which began as a group of citizens who 
did not know a lot about the problem. In the process of our 
deliberations, they learned about them and came to make some 
very strong, unanimous recommendations to the governor, many of 
which have been adopted. Others are currently being developed. 
Those essentially will put Oregon on a path to very 
significantly reduce our greenhouse gas emissions, to slow the 
rated growth--to cap that--and then finally to return to 1990 
levels. That action of one State has been mirrored by many 
other States, including yours. States working together along 
the West Coast and in New England have been making very 
significant progress in drawing attention to the problem and 
are beginning to address it in very serious ways. I get hope 
from that. I believe that now it is Congress' turn to act in 
kind and to listen to what the States have been saying and to 
do for the rest of the country what these States have begun to 
do and to take it even further.
    The reason that I draw hope from all of these issues is 
partly the knowledge that social systems can often change very, 
very rapidly. We have seen that in attitudes toward drunk 
driving, towards smoking, towards women's suffrage, towards 
civil rights issues. So we know that it is possible to have 
very, very rapid change. It is my hope that we are getting 
closer and closer and that Congress will show very real 
leadership in bringing to us the tipping point and in having 
some very meaningful actions to put us on the right path.
    The Chairman. Dr. Kleypas.
    Ms. Kleypas. I make a habit when I am traveling on planes 
and putting all of that extra CO<INF>2</INF> in the atmosphere 
to interview the people next to me about what they know about 
climate change and including ocean acidification. I have been 
astounded in the last year--I would say the last year, maybe 
two--at how much people know. Now, this is somewhat of an elite 
group. These are people who fly planes. What I have noticed is 
so many people are becoming more aware, and they are no longer 
arguing with me that is this really happening. For a long time, 
I got the question: Is this really happening? Now I am hearing 
the question: What can we do?
    So people are hungry for solutions. They are hungry for 
choices. They are willing to sacrifice. I am just seeing this 
momentum, and it is time to sort of seize that and to do what 
Jane was saying. You know, the States have become leaders in 
this issue. If the U.S. becomes a leader in this issue and 
finds real solutions either technologically or through invoking 
social change, then the rest of the world will follow. We have 
been a leader for so long.
    The Chairman. Thank you.
    Ms. Spruill.
    Ms. Spruill. Well, at the risk of stating the obvious, Mr. 
Chairman, I, actually, think this hearing is a bright spot in 
that the dots that are being connected like this between ocean 
and climate change would not have happened even 5 years ago. I 
would agree with my panelists that this level of awareness 
brought about by the urgency of climate change is creating a 
formula that we have not had before, and we need to seize on 
that opportunity.
    I am actually hopeful about coral reefs, and I want to 
bring it back to that in this year of the reef. I think there 
is some hope even in the face of this dire news we have heard 
today. If we act divisively now, we can save some of those 
reefs that still remain. I think certainly emerging science is 
showing us that if we can protect the integrity and the 
resiliency of these systems they should be able to withstand 
some of these climate change stresses that we cannot yet 
anticipate, but we have to act now.
    The Chairman. So let us get here at the end of the hearing 
a 1-minute summation from each of you as to what you want us to 
remember about the oceans, about ocean policy, about the 
responsibility of the United States Government to be the leader 
in the world to protect it and to have a leadership role that 
commands the respect of the rest of the world when we ask them 
to work with us on these issues.
    Let us go in the opposite order of the opening statements. 
So we will start with you, Ms. Spruill, if we may, in giving us 
your concluding 1-minute.
    Ms. Spruill. Thank you, Chairman Markey.
    I think, as the policy organization represented at the 
table, I am going to probably summarize with some brass tax and 
restate that there is a lot that we can already do that is 
already in the pipeline to move forward on some of these 
problems we have talked about today.
    First, every climate change bill should support adaptation 
strategies. Mitigation alone is not going to solve this 
problem. We need to take on both the cure and the recovery 
simultaneously. You know, these adaptation strategies could be 
and, actually, should be paid for by funding from the auction 
of carbon allowances, so there is a mechanism there.
    Secondly, this Congress should pass the three bills that I 
outlined previously--Oceans 21, the Coral Reef Conservation Act 
and the National Marine Sanctuaries Act. Oceans 21 is 
successfully out of the subcommittee, and it would be a major 
step forward in providing this comprehensive ocean management 
scheme that we have talked about.
    Then lastly, do no harm. I think that we need to be 
researching some of these technological solutions.
    The Chairman. Thank you.
    Dr. Kleypas.
    Ms. Kleypas. Well, first of all, I think you guys have 
gotten the point that the oceans are in trouble and that we 
really need to act rapidly. We cannot afford a doubling of 
CO<INF>2</INF> from preindustrial levels in the atmosphere. I 
really stress that we try to keep it below that.
    The hopeful note is that we know that warming has some 
momentum and that, even if we cap carbon dioxide in the 
atmosphere, we still will have increased warming. With ocean 
acidification, if we can stop atmospheric CO<INF>2</INF> 
concentrations, that will stop the ocean acidification process. 
If we can remove CO<INF>2</INF> from the atmosphere, it 
reverses the situation. So it is a fixable problem.
    We also talk a lot about the importance of ocean ecosystems 
to our economies. You know, we are always asked to put a dollar 
value on all of the things that the oceans offer to us, but 
there is something we are missing here. That is the aesthetic 
quality of the oceans. We talk about so many of these 
ecosystems being rain forests of the sea and so forth. I think 
we cannot forget that. That is something we need to leave for 
future generations. If anything sticks in your mind, let it be 
one of my favorite quotes from Jacques Cousteau, which is 
``People protect what they love. All of you who love the sea, 
please help us protect her.'' So I would ask you to help us 
protect the oceans.
    The Chairman. Thank you, Doctor.
    Dr. Lubchenco.
    Ms. Lubchenco. I guess I would highlight four quick things.
    I truly believe we are at a crossroads right now. The 
choice that we have to make is between the path that we are on, 
which has been called by one scientist, Jeremy Jackson, the 
slippery slope to slime, which is the direction that oceans are 
headed in now due to all of the threats, including climate 
change. The other path is what I like to think of as the mutiny 
for the bounty. I think that we really are at a crossroads, and 
we need to understand that and need to have the courage to 
choose the right thing because it is in our interest to do so.
    The second thing I would highlight is that we need to think 
about adaptation differently. It is not just the adaptation of 
human systems, but we need to understand how to create the 
conditions for wildlife to adapt to the changes that are 
inevitable. That means reducing other stresses--managing 
fisheries very conservatively, eliminating destructive fishing 
gear, reducing the flow of nutrients and chemical pollutants to 
the coasts, protecting habitats as much as possible.
    It means creating networks of no-take Marine reserves and 
protected areas so that the raw material so as much genetic 
diversity and as many species as possible have the best chance 
to adapt to changes that are inevitable. So expanding the way 
we think about adaptation.
    Thirdly, I would emphasize the importance of significantly 
increasing the funding for scientific monitoring and research. 
It is woefully inadequate for us to understand and to better 
advise how to do this adaptation, how to do many of the things 
that lie ahead.
    Fourthly, I would suggest a much more comprehensive 
understanding of oceans, of the management of oceans through 
mechanisms such as those in the Oceans 21 bill, but also 
educating citizens is vitally important.
    The Chairman. Thank you, Doctor.
    Dr. Earle.
    Ms. Earle. Well, first, I want to wholeheartedly endorse 
all of the above. Well said.
    I will add only a few little additional comments, that we 
have a chance to protect what remains of all preceding history 
that still exists in the wild places on the planet. The United 
States took the lead going back to the early part of the 20th 
century. Some say the best idea America ever had was the 
national park system, an idea that is now being adopted in some 
measure in the sea. Although, there is more of an attitude of 
managing instead of protecting areas in the sea. There are some 
4,000 worldwide places that are known as marine-protected 
areas, but there is not full protection for the wildlife that 
is there. We can do a much better job of taking care of our 
own, exclusive economic zone, an area that exceeds the size of 
the rest of the United States put together. We have a chance to 
do something really bold in our own waters.
    Another thing to do is to take a leadership role. Others 
followed the example back in the early part of the 20th 
century. Here we are at the early part of the 21st. What we 
could do is to take a role through encouraging actions on the 
part of other nations to look at the high seas--the 64 percent 
of the ocean that is beyond national jurisdictions--and to 
encourage through treaties, through partnerships, through our 
own example, to look at the Arctic and to the Antarctic.
    In the Antarctic 50 years ago, a treaty was put into place, 
and we were among the primary instigators of that treaty to 
protect and to forestall the development and the destruction in 
many ways of that distillation of all preceding history. There 
is a chance right now to do something like that for the Arctic 
before the frozen goose is cooked, if you will. We have a 
chance to do something in the Arctic now, but if we wait much 
longer in terms of asserting ourselves as leaders and in 
working with others to show the advantage of protection exceeds 
by far the advantage of short-term exploitation, this is the 
moment. I think you have heard it recently from all of us. This 
is a moment in time when, as never before, we recognize we have 
got a problem. Maybe, as never again, we can do something about 
it.
    The Chairman. Beautiful. Thank you, Dr. Earle.
    Now, while you were each giving your concluding statements 
to the committee, unfortunately, Congressman Emanuel Cleaver 
from the State of Missouri, arrived. I will now recognize him 
for a statement or for a round of questions, whatever is his 
choosing.
    Mr. Cleaver. I apologize for being late.
    This is certainly a panel that I wanted to hear, and your 
written comments are along the lines of what, I think, is 
needed for our country. I was thrown into some panic over the 
weekend when I read about the shark attack in San Diego. Being 
from Kansas City, Missouri--and I am a United Methodist 
pastor--Satchel Paige's family were members of our church. In 
fact, I eulogized the great Satchel Paige.
    Satchel once told me that he and one of his teammates were 
out fishing. As they were sitting there on the bank, fishing, a 
water moccasin came out of the water, and his teammate grabbed 
a huge brick to kill it. Satchel said to him, no, we are not 
going to kill him because we came into his house. If he comes 
into our house, that is a different story, but when we are in 
his house, we do not kill him.
    So my fear every time I hear about a shark bite is that it 
feeds--pardon the pun--the men and women who would suggest 
that, you know, the best white shark is a dead white shark, so 
they can do this aimless killing of these fantastic animals 
without regard to the fact that the shark would never go into 
7-Eleven to kill anyone and that, you know, you would have to 
come into his house. So I am very concerned about that.
    As I am reading that, I am driving by last evening here in 
Washington--seafood restaurant after seafood restaurant after 
seafood restaurant. I am deeply concerned about the overfishing 
in our oceans, and I think we ought to try to do more than just 
condemn it. At some point, we need to move legislatively and, 
in some instances, maybe even militarily to prevent 
overfishing.
    I do not want to delay you. You know, you came here today 
and provided fantastic testimony, and I hope that in the days, 
months and years to come that you will continue to be resources 
for those of us who believe that the ocean is the key to our 
survival on this little ball that circles the sun. I am not at 
all sure that the ocean receives the respect that it should 
from those of us who depend on it, even those who depend on it 
and do not know it.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman from Missouri. He 
reminds us again of what a powerful combination a minister can 
be when talking about moral issues that actually come into the 
political realm, which is this responsibility that we have to 
protect the planet.
    We thank each of you for testifying here today. The planet 
is running a fever. There are no hospitals for sick planets. We 
have to engage in preventative care in order to avoid 
catastrophic consequences. That is our opportunity, our 
responsibility.
    Our most important Supreme Court decision regarding the 
environment in history was in Massachusetts versus EPA just 1 
year ago, in April of 2007. It ruled that the EPA had a 
responsibility to make a determination as to whether or not 
CO<INF>2</INF> was endangering the planet. Massachusetts relied 
upon, in its argument, the danger already existing to the 
coastline of Massachusetts. The Supreme Court ruled that the 
EPA, as a result, has a responsibility to make a decision, 
which they have yet to do 1 year later.
    So your testimony helps to, once again, dramatize how 
important the oceans are 1 year after Massachusetts versus EPA, 
Massachusetts' trying to protect itself against what is 
happening to its coastline and to every coastline everywhere on 
the whole planet. You are all incredibly important national and 
international leaders on these issues. This was one of the most 
important hearings that we have had.
    Speaker Pelosi has only created one new committee during 
her 2 years as Speaker, and that is this Committee on Global 
Warming. I think that if, for no other reason, the creation of 
this committee is valuable because we had this hearing today 
with the witnesses that we have had testify before us. We thank 
you all.
    With that, this hearing is adjourned.
    [Whereupon, at 2:58 p.m., the committee was adjourned.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



</pre></body></html>
